Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      RURAL HEALTH CLINICS:


     GROWTH, ACCESS, AND PAYMENT




               SEWIQ3
              N+    “&*
         *+
        #                  JUNE GIBBS BROWN
        $                 Inspector  General
        s
        % ~
         ‘4$’*                 JULY 1996
            %taa
             >               OEI-0WM40040
                      OFFICE OF INSPEC’rOR GENERAL

The missionof the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutoty mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES
The OIGS Office of Audit Semites (OAS) provides all auditing semices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                   AND INSPECHONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of William Moran, the Regional Inspector
General for the Office of Evaluation and Inspections, and Natalie Coen, Deputy Regional
Inspector General, Office of Evaluation and Inspections, Region V. Participating in this
project were the following people:

Rezion V                                                       Headquarters

Barbara Butq Team Leader                                       Wynethea Walker
Joseph Penkrot                                                 Alan Levine

To obtain a copy of this report, call the Chicago Regional Office at 312/353-4124.
              EXECUTIVE                         SUMMARY

PURPOSE

Analyze the recent growth of rural health clinics and its implications for the Federal
Government and States.

BACKGROUND

The Rural Health Clinic program, createdin 1977 by Public L.aw95-210, is intended
to increase access to health care for rural medically underserved areas and expand the
use of midlevel practitioners (nurse practitioners, physician assistants and certified
nurse midwives) in rural communities. Rural health clinics (RHCS) receive cost-based
reimbursement from Medicare and Medicaid. The Health Care Financing
Administration (HCFA) is responsible for certification and oversight of RHCS.

Recently, several States have expressed concern about the growth of RHCS in their
States and the associated Medicaid costs. They have asked for written guidance
and/or the authority to regulate RHCS with regard to a number of aspects.

This report is intended to refine our general understanding of the extent, location, and
impact of the growth of rural health clinics, and to identify vulnerabilities for
immediate attention and issues for further investigation. It is based on quantitative
data from several sources, comments from States, and conversations with over 200
people at 27 rural health clinics in 3 States, State and local government agencies, the
National Association of Rural Health Clinics, and a HCFA workgroup on RHCS.

FINDINGS

RECENT GROWTH. Rural health clinks and associated Medicare and Medicaid
expenditures have grown substantially since 1990.

Rural health clinics grew 650 percent from the end of 1990 to October 1995.

Projected growth for 1994 and 1995 could be 150 percent. Expansion in 30 States

could be 100 percent or more in that 2-year period; in 13 States, RHCS could increase

by over 200 percent.


Medicare and Medicaid expenditures for rural health clinics have more than doubled

since 1991. In fiscal year (FY) 1995, Medicare expenditures increased from $78

million to $125 million, and Medicaid expenditures, from $325 million to $439 million.

Medicaid outlays for FY 1992 through 1995 ($876 million) were about three times

Medicare outlays ($296 million). Forty percent of States with RHCS reported

increases of 50 percent or more in RHC Medicaid expenditures in a l-year period.





                                            i
REASONS FOR GROWTH. Four interrelated factors appear to be driving the
recent growth of rural health clinics: providing access to care, reimbursemen~
managed care, and the certification process.

Our respondents mentioned the first three factors most often when describing the
reasons they established an RHC. We conclude that the certification process also is
driving RHC growth because it operates similarly to that of an entitlement program,
where any entity meeting certain broad criteria is automatically certified.

We cannot be certain of whether the recent spurt of growth in RHCS represents a
positive development, in terms of opening access to care, or a negative one, in terms
of cost or excess capacity. However, we do have reason to raise some concerns for
immediate action or further study.

ACCESS TO CARE. Rural health clinics maybe increasing access to care in some
areas but not in others. We found no reliable data quantifying the impact of RHCS
on access to care.

We visited some RHCS that appear to be increasing access to care as the law
intended. However we also believe that RHCS in some areas are not increasing
access, for several reasons. They may not be located in true medically underserved
areas because undersexed designations are outdated or inappropriate.    Or, providers
currently serving the medically undersexed population may simply convert to RHC
status when no additional incentives were needed to retain them. Rural health clinics
may be concentrated together or in areas with other providers serving a similar
population, thereby duplicating services already amply available.

REIMBURSEMENT. Rural health clinics are paid based on their costs, which may
be inflated or inappropriate but are diflkult and sometimes impossl%le to verify or
audit without significant resource expenditure by the Government.

Vulnerabilities inherent in the cost reimbursement system are apparent in the rural
health clinic program. There is little or no incentive for efficiency, there are
opportunities for inflated and inappropriate payments (especially given the lack of
itemized billing for most independent RHCS), and the process overall is cumbersome,
comple~ and difficult and expensive to oversee. Federal and State oversight of RHCS
is sorely lacking.

RECOMMENDATIONS

CERTIFICATION PROCESS. The HCF~ with the Health Resources and Services
Administratio~ should modi@ the RHC certification process to increase State
involvement and ensure more strategic placement of rural health clinks.

This responds to State concerns and promotes a more rational and strategic placement


                                           ii
of RHCS to ensure that government dollars translate into increased access. We
suggest a variety of ways in which HCFA could implement the recommendation.

REGULATIONS.       The HCFA should expedite the issuance of regulations now under
development.

This responds to States’ requests for guidance, in such matters as commingling and
provider-based reimbursement, to assist them in monitoring and evaluating RHCS.

REIMBURSEMENT METHODOLOGY.                  The HCFA should take intermediate steps
to improve the oversight and functioning of the current cost reimbursement systerq
with the long term goal of implementing a different payment method.

This addresses problems we identify relative to the current cost reimbursement system
for RHCS, both now and in the long term. It would lead to the implementation of a
new payment method which would provide an incentive for primary care in rural areas
and eliminate the vulnerabilities inherent in cost reimbursement.

COMMENTS

The Health Care Financing Administration, the Health Resources and Services
Administration (HRSA), and the Assistant Secretary for Planning and Evaluation
(ASPE) submitted written comments on the draft report. Copies of the comments are
in Appendix A. They all concur generally with the recommendations, but expressed
concerns and suggestions regarding various aspects of the steps proposed to carry
them out. We look forward to future discussions with HCFA and HRSA concerning
their action plans for implementing the recommendations.

Comments from ASPE also posed questions related to the nature of RHC growth, the
relationship between RHCS and access to care, and how RHCS might be affected by
the growing involvement of Medicare and Medicaid in managed care. These are
important issues, but unfortunately are beyond the scope of this study. We hope that
these issues will be addressed in future studies of the rural health clinic program by
ASPE, HCF~ or others.

The National Association of Rural Health Clinics and the National Rural Health
Association also submitted extensive comments. They view the report as unduly
critical of RHC growth and stress the continuing need for incentives to retain and
attract primary care to underserved rural areas. However, they also recognize that
many of the problems raised in the report merit attention. Like HCF~ HRS~ and
ASPE, they support our recommendations while disagreeing with some of the steps
proposed to implement them. We have provided copies of their comments to HCF~
HRS~ and ASPE.

We thank everyone for their comments on this report.   We have made changes in the
text in response.


                                          ...
                                          111
                        TABLE                    OF CONTENTS


                                                                                                                     PAGE


EXECUTIVE suMMARY


INTRODUCTION              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


 �Recent      Program Growth . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


  � Reasons for Growth..               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..8


  � Access to Care....             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


  �Reimbursement             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


RECOMMENDATIONS                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


  � Certification Process . . . . . . . . . . . ..O . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


  � Regulations        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


  �Reimbursement           Methodology           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


  � Comments         . ..oo...       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A-1

                                  INTRODUCTION


PURPOSE

Analyze the recent growth of rural health clinics and its implications for the Federal
Government and States.

BACKGROUND

Nationally, rural health clinics (RHCS) grew from 29 in 1978 to 2,199 in March 1995,

when this study was initiated. Half of all RHCS in the U.S. were certified in the 18

months between October 1993 and March 1995.


Public Law 95-210 created the Rural Health Clinic program in 1977. The program is

intended to increase access to health care for rural medically underserved areas and to

expand the use of midlevel practitioners (nurse practitioners, physician assistants and

certified nurse midwives) in rural communities. The law created cost-based Medicare

and Medicaid reimbursement for RHCS. Between 1987 and 1993, Congress passed

several amendments to the Act intended to overcome various obstacles to

participation in the program.


The Health Care Financing Administration (HCFA) is responsible for certification and

oversight of RHCS. Following a State survey funded by HCF~ an RHC is certified as

Medicare-eligible by HCFA. Medicaid certification follows automatically.


An RHC must be engaged primarily in providing outpatient prima~ medical care.

Covered (core) services are: services provided by a physician, physician assistant, nurse

practitioner/midwife, clinical psychologist, or clinical social worker; semices and

supplies incident to the semices of these providers; pneumococcal and influenza

vaccines and their administration; and visiting nurse home health services (in specially

designated areas). An RHC maybe independent (owned by a physician, nurse

practitioner, physician’s assistant, or private company), or provider-based (an integral

part of a hospital, nursing home or home health agency).


An RHC must be located in a rural areal that is medically underserved. A medically

underserved area is an area designated as medically underserved by a Public Health

Sexvice formula, a health professional shortage area, or a shortage area designated by

a governor. Also eligible are areas including a population group which has a health

professional shortage, and high migrant impact areas. Rural health clinics retain their

RHC status even if their location is subsequently determined to no longer be rural or

medically underserved.



     1 For purposes of this program, “rural” is defined as “non-urbanized,” that is, lying outside of “urbanized” areas.
The U.S. Bureau of the Census defines an urbanized area as a “central city (or cities) and its contiguous closely
settled territory with a combined population of at least 50,000.”


                                                            1
Rural health clinics receive cost-based reimbursement for the core sewices listed
previously. Independent RHCS receive Medicare and Medicaid reimbursement limited
to their actual costs, not to exceed $55.53 per visit (a “face to face encounter” between
a patient and a “covered service health care practitioner”) in 1995. This cap is
adjusted annually according to the Medicare Economic Index. Provider-based RHCS
receive the lower of reasonable costs or charges, and unlike independent RHCS, are
not subject to either a reimbursement cap or productivity standard (a minimum
number of visits per year physician or midlevel practitioner).

In addition, RHCS may bill fee-for-semice for certain State-specific Medicaid non-core
ambulatory services (such as dental services or pharmaceuticals).   Also, a practice is
allowed to operate part of the time as an RHC and part as a fee-for-sexvice practice.

In connection with expressing concerns about the rapid growth of RHCS and their
associated Medicaid costs, some States have asked for written guidance and/or the
authority to regulate RHCS with regard to a number of aspects. In response to these
concerns and questions, HCFA established a rural health clinic workgroup in 1994.
This group has been involved, among other things, in the development of regulations
for the program.

SCOPE AND METHODOLOGY

This report provides an analysis of the growth of rural health clinics. It identifies
vulnerabilities for immediate attention and broader issues for further investigation.   It
is based on data from several sources.

The HCFA’S On Line Survey, Certification and Reporting System provided data on
the number of RHCS by State. The HCFA regional offices and States provided us the
number of RHC applications pending. State Medicaid agencies gave us data on
Medicaid expenditures for RHCS, sometimes with additional comments about RHC
growth and its impact.

We also conducted a case study of three States (Illinois, Mississippi, and Texas) where
RHC growth has been high, visiting State agencies and 27 RHCS in these States,
located in counties where RHCS have proliferated. We sought a cross-section of each
county’s RHCS in terms of type (independent versus provider-based; general practice
versus specialty), ownership, operation by a physician versus a midlevel practitioner,
size of practice, location, and years of operation. Thus the sample included RHCS as
varied as large group practices with many physicians and midlevel practitioners and
over 50,000 visits a year, and clinics operated by solo midlevel practitioners with
remote physician supervision and as little as 1,277 visits a year. We also analyzed 25
cost reports for these RHCS.

Field visits included discussions with clinic owners” and staff, review of data, and
personal observation. Clinic tours gave a sense of general clinic atmosphere, patient


                                             2
flow, personal characteristics of staff and patients, and administrative procedures at

the RHCS. Additionally, for a sense of the geographic and demographic

characteristics of each area, we drove around each county in our sample to view every

RHC - their size and appearance, whether they appeared busy, the general setting,

and the proximity of other medical facilities, especially hospitals, clinics, and physician

offices. In some cases where primary care appeared to us to be readily available, we

supplemented our observations and conversations with a review of the Yellow Pages

of the telephone book (“Physicians”). We sometimes talked to local staff of welfare,

public health or other agencies for a sense of how the RHCS in our sample were

viewed, and a description of health care availability and access in the area.


In addition to our observations on site, formal data collection, and interviews, we read

or heard unsolicited comments about RHC growth from a number of sources: letters

to HCFA from States, comments volunteered to us by States submitting Medicaid

data, comments by States on our design questions, and even discussions and questions

at a national conference on rural health. In all, we spoke or heard in writing from

over 200 individuals, by telephone and in person, about RHC proliferation and its

implications. These include people2 at the 27 RHCS in the case study, officials of

State and local government agencies, consultants, representatives of the National

Association of Rural Health Clinics, and HCFA’S workgroup on rural health clinics.





   2 owners, medieal directors, physicians, midlevel practitioners, and others.


                                                           3
                                        FINDINGS


RECENT GROWITI. Rural health clinics and associated Medicare and
Medicaid expenditures have grown substantially since 1990.

Growthof RHO began to accelerate rapidly in 1990. The national growth rate for 1994
and 1995 cornbihed could be abnost 150 pmenti

Most of the growth of RHCS nationally

has occurred since 1991. Eighty-seven                       NationalGrowth of Rural Health Clinics

percent of the RHCS operating in                             m.                     Iwo-lw&
October 1995 were certified after 1991.
                                                             m.
Figure 1 shows national growth from
the end of 1990, when there were 314                         1s00

RHCS, to October 1995, when there
were 2,350. This is an increase of about                     la
650 percent.                                                  Soo
Growth accelerated notably in 1994 and                         o     t2/m   12/91    U/W   12/93   12/94   1W9S
continues at a fast pace today.3 Figure                     Ykd Smummdy

2 on the next page shows projected
RHC growth, broken down by State, in                   Figure1
calendar years 1994 and 1995 combined.

Nationally, RHCS more than doubled (103 percent) in the 15 months from January
1994 through October 1995. This increase will be nearly 150 percent if the 580
applicants awaiting certification as of October 1995 are certified by year’s end.

The projected RHC growth rate4 varies widely by State. However, 30 States could
experience growth of 100 percent or more in the 2-year period, and 13 States could
see expansion exceed 200 percent. Ten States will likely have at least 100 RHCS by
the end of 1995. These 10 States would then comprise more than half (56 percent) of
the RHCs in the U.S. Between January 1, 1994 and December 31, 1995, the average
growth rate of RHCS in these States is projected to be 161 percent; 7 States may
experience growth of 170 percent or more. Texas, with by far the highest number of
RHCS (almost three times more than California, the next highest State), could see
growth of 181 percent in that period.



   3 There is no difference in the growth of independent versus provider-based RHCs nationally, although
differences
          acrossStates   undoubtedly exjst.

    4 Projected growth equals the number of RHCs certified from January 1994 to October 1995, plus the number
of applications pending as of October 1995.


                                                        4
Figure 2

ACTUAL AND PROJECTED GROWTH OF RURAL HEALTH CUNICS: 1994 AND 1995
               (D.soonding order by total projected as of 12/95)

                      ACTUAL      ACTUAL           APPUCATIONS           PROJECTED             PROJECTED
                        AS OF       AS OF                  PENDING                 AS OF           GROWTH
STATE                    1/94         10/95                      10195              12195    1/94 TO 12/95
._- ...._---__   -... .-—----- ............. .. ----------------------- ----------------  ------------------------
TEXAS                     193            367                      175                 542                   181%
CAUFORNIA
                 93            146                       44                 190                   104%
ILUNOIS
                   48            113                       41                 154                   221%
KANSAS
                    77            133                       16                 149                    94%
MISSISSIPPI
               49             139                       6                 145                   196%
MISSOURI
                  46             115                      14                 129                   180%
IOWA
                      33              98                      16                 114                   245%
NORTH CAROUNA
             66             105                       5                 110                    62%
SOUTH CAROUNA
             22              52                      53                 105                   377%
FLORIDA
                   37              98                       2                 100                   170%
ARKANSAS
                  41              95                       0                  95                   132%
GEORGIA
                   40              90                       1                  91                   128%
OKIAHOMA
                   28             78                      12                  90                   221%
MICHIGAN
                   38             82                       7                  89                   134%
LOUISIANA
                   7             49                      35                  64                  1100%
NORTH DAKOTA
               47             69                       6                  75                    60%
ALABAMA
                    23             61                      12                  73                   217%
TENNESSEE
                  36             70                       2                  72                   100%
NEBRASKA
                   26             57                       8                  65                   150%
WISCONSIN
                  18             33                      29                  62                   244%
SOUTH DAKOTA
               37             44                        6                 50                    35%
PENNSYLVANIA
               20             33                       10                 43                   115%
WASHINGTON
                 22             32                       10                 42                    91%
WEST VIRGINIA
              30             41                        0                 41                    37%
MINNESOTA
                  17             36                        4                 40                   135%
COLORADO
                   16             26                       13                 39                   144%
KENTUCKY
                   15             34                        3                 37                   147%
VIRGINIA
                    7             27                        6                 35                   400%
UTAH
                       12             14                       18                  32                  167%
MONTANA
                    20             24                        5                  29                   45%
MAINE
                      10             26                        0                  26                  160%
IDAHO
                      16             22                        1                  23                   44%
OREGON
                     20             21                        0                  21                    5%
INDIANA
                     2             12                        5                  17                  750%
WYOMING
                     5             13                        4                  17                  240%
VERMONT
                     5             16                        0                  16                  220%
NEW HAMPSHIRE
               1             14                        0                  14                 1300%
NEW MEXICO
                  6             10                        4                  14                   75%
AW3KA
                       6              9                        4                  13                  117%
NEW YORK
                    0             11                       0                   11                   NA
ARIZONA
                     2              7               not avail.                   7                  250%
OHIO
                        4              4                       1                    5                   25%
HAWAII
                      2              2                       0                    2                    o%
RHODE ISIAND
                0               1                      0                        1                NA
NEVADA
                      0               1              not avail.                       1,               NA

TOTAL
                  1,247          2,530                      580               3,110                   149%


�CT, DE, MA, MD, NJ, WASHINGTON D.C.: O RHCS

                                                                                       .‘i
Cornbihed Mkdicare and Medicaid qvenditures for nual health clinics have more than
doubled since 1991.

Figure 3 shows the increase in combined Medicare and Medicaid expenditures for
RHCS for fiscal years 1992 through 1995 from HCFA data.

Readers should be aware that the Medicaid data is not complete. Several States with
RHCS (most notably Texas, the State with by far the most RHCS) are not included in
HCFA data. Also, FY 1995 data is preliminary only. Despite gaps, however, these
figures give some notion of the rate at which Medicaid expenditures on RHCS have
increased.



           MEDICARE AND MEDICAID EXPENDITURES                         ON RHC’S

                        Fiscal Years 1992-1995

                              ($1.1
                              .     billion)

       Fiscal      Medicare Percent Medicaid Percent           Total Total Percent
       Year        Expend. Increase Expend. Increase         Expend. ~ Increase

        1992        $ 37M          -      $   122M    -      $ 159M .-
        1993        $ 56M         51%     $ 193M     58Ya    $ 249M        57%

        1994        $ 78M         39%     $ 247M     28%     $ 325M        31%
        1!395”     $ 125M         60%     $ 314M     2790    $ 439M        35%
        Percent                   23870              157%                  176?Z0
        Increase

       * Preliminary/incomplete

      Figure3


Growth in RHC expenditures exceeded 200 percent for Medicare and 150 percent for
Medicaid in this period. Annual Medicaid outlays were about three times greater than
Medicare outlays in every year. For the 4 years combined, Medicare expenditures
were $296 million and Medicaid, $876 million, for a total outlay of $1.1 billion.

Fo~ pement of States with RlK3 Reprxt Si~~cant         l-Year Growth in Mdicaid


Thirty-two of the 46 States that have RHCS submitted data to us enabling the
calculation of a l-year change in their RHC Medicaid expenditures, shown in Figure 4.
Most States provided a comparison of their fiscal years 1994 and 1995.



                                                6

Figure 4



ONE YEAR CHANGE IN RHC MEDICAID EXPENDlmRES                 REPORTED BY 32 STATES

   (Descending Order by percent change)

                                               CHANGE FROM
STATE                    YEAR   PAYMENTS       PREVIOUS YEAR                      COMMENT
—..———              —-          —--———-        —-—- ——       ———---—                  ————             ---------
LOUISIANA                1995     1,977,798         1146%
ALABAMA                  1995     3,379,349         194%
OKLAHOMA                 19%      2,711,269         163%
IOWA                     19s5     2,621,060         130%
VERMONT                  1994     1,340,923         116%         Jan-Sapt ’95 only: $1,737,592
MISSISSIPPI                      12,0S9,000          107%
SOUTH CAROUNA            1995     3,756,620          101%        Stat. projects $8M for ’96
MISSOURI                 1995     7,633,525          93%
ARKANSAS                 1995     2,622,341          90%
KENTUCKY                           4,415,551         63%
WISCONSIN                          1,060,875         80%
MICHIGAN                 1994      5,593,656         75%
FLORIDA                            4,954,580         74%
GEORGIA                            2,816,400         67%
AIASKA                                %,541          62%
MINNESOTA                          1,403,133         61%
COLORADO                 1994        673,161         60%
KANSAS                            3,196,324          51%
TENNESSEE                1994     1,435,050          50%         RHCS now in Steta managed care program
TEXAS                    1994    22,130,101          47%
NORTH CAROUNA                     8,400,346          31%
WASHINGTON               19s4     1,143,771          30%
NORTH DAKOTA             1995     2,346,032          29%
VIRGINIA                 1994       375,059          21%         Jan-Sept ’95 only $1 ,96M (up 400%+)
CAUFORNIA                        43,639,997          21%
ILLINOIS                           6,300,000         17%
IDAHO                    1994        3s0,563         16%         Jan-June ’95 only: $429,158
UTAH                                 199,128          8%
MAINE                                718,591          1%
NEW YORK                             944,521          1%         Extrapolated from State date
WEST VIRGINIA            19s4      9,949,346         -20%
OHIO                     1995      1,163,329         -26%        5 of 12 RHCS converted to FQHCS




Nineteen of the 32 States experienced an increase of 50 percent or more in RHC
expenditures, and 3 are close to 50 percent or well on their way to large increases for
1995. Eight States saw increases of more than 100 percent in 1 year.

Only two States reported a decline in RHC expenditures; in one, almost half of the
RHCS converted to federally qualified health center status, which in essence only shifts
costs from one category to another since those entities are also reimbursed at cost.5


   5 Medicaid expenditures in a third State, Tennessee, may also decline as a distinct provider group since all RI-Ks
there have been folded into the State’s managed care system.



                                                           7
Certain examples of recent growth stand out.

  �	     In Kansas (133 RHCS at present), expenditures jumped 50 percent in 1995,
         and according to the State, are headed for another increase of at least 30
         percent in 1996.

         In Virginia (27 RHCS), expenditures rose only 21 percent in 1994, but the
         State reported expenditures of nearly $2 million for the first 9 months of
         1995 alone, an increase of over 400 percent.

  �	     Louisiana (49 RHCS) is experiencing spectacular growth, with a 63 percent
         increase in RHCS from May to October 1995, 35 applications pending, and a
         l-year rise in expenditures from some $159,000 to almost $2 million.

  �	     In South Carolina (52 RHCS), expenditures increased 101 percent to about
         $3.7 million in 1995, and the State projects expenditures of $8 million for
         1996, another potential l-year increase of 116 percent.

Some States, both those on this chart and others, may see a significant increase in FY
1996 because many of their RHCS are newly certified and just beginning to bill.

REASONS FOR GROWTH. Four interrelated factors appear to be
driving the recent growth of rural health clinics: access to care,
reimbursement, managed care, and the certification process.

Several factors appear to be driving the growth of RHCS. The first three are
marketplace forces that, for many RHCS we visited, appear to have interacted to drive
their creation. For example, a physician practice struggling financially with a high
proportion of Medicare and Medicaid patients maybe driven to become an RHC
primarily for enhanced reimbursement, but may also be genuinely interested in serving
more patients by adding a midlevel practitioner. Similarly, a rural hospital maybe
primarily concerned with surviving under managed care, but also be motivated by a
desire to create an outpatient care presence in their area.

Desire to create, expand, or maintain access to primay care in rural areas. The next
finding in this report describes RHCS we visited that appear to have enhanced access
to care in various ways. Respondents at practices that had converted to RHC status
said it enabled them to remain in their communities, to serve (more) Medicaid
patients, or to serve more people by adding a midlevel practitioner. A few
freestanding practices had been set up initially in areas with no other care.
Respondents at provider-based RHCS tended to give other answers first when asked
why they established the RHC.

We believe that the creation of the Office of Rural Health Policy, within the Public
Health Service, in 1990 has also helped publicize and promote the potential for
increasing access through the rural health clinic program. In some States, changes in


                                           8
State laws governing the utilization of midlevel practitioners   have also facilitated RHC
growth.

I?ornke of enhanced revenue through cos~ reimbursement. This is the main reason given
to us at physician practices that converted to RHC status. Our respondents told us
that enhanced reimbursement has also led companies to buy and convert physician
practices, and induced hospitals to establish new RHCS, either to compensate for
reduced in-patient revenue or to divert emergency room patients to more appropriate
(i.e., outpatient) care.

Approach of managed care. Managed care was of considerable interest or concern for
many of our case study respondents, although few had any concrete notion of how it
might arrive in their area, what form it might take, or how they might be affected.

Nine of the 10 provider-based (mostly hospitals) RHCS in our sample said that
positioning for managed care was a major reason for their establishing an RHC, and
most were part of a network of several RHCS in an area. Two of the largest
independent RHCS (group practices) and a company that owns 11 RHCS in one State
also mentioned this. Respondents said they expected their RHCS to help establish
market share, create a referral base or network, or enhance community visibility of the
parent provider generally.

The strength of managed care as a force behind creating an RI-IC may explain why
the owner-representatives of 8 of the 10 provider-based RHCS said they are
maintaining the RHCS despite losing money, in part due to low patient load.

Certification process. We view the RHC certification process itself as another factor in
RHC growth. It is similar to that of an entitlement program, in that an applicant that
meets certain location requirements (in this case, is in a rural federally or governor-
designated medically underserved area) as well as certain federal health and safety
requirements, is approved to participate in the Medicare and Medicaid programs.
Applicants are not required to document the potential impact of establishing an RHC.
No requirements exist that RHCS be created in areas of greatest need and no limits
exist cm the number of clinics that may be established in an area. Also, an RHC
retains its status, including cost-reimbursement, even if its location is subsequently
determined to no longer be rural or medically underserved. The next finding describes
questionable situations that can arise as a result of failing to limit RHC growth in an
area or target RHCS in a more strategic manner generally.



We cannot be certain of whether the recent spurt of growth in RHCS is a positive
development, in terms of opening access to care, or negative, in terms of cost or
excess capacity. However, as the next section of the report shows, a lack of good data,
our observations on site, and feedback from some States all point to concerns for
immediate action or further study.


                                              9
ACCESS TO CARE. RuraI heakh clinics may be increasing access to
care as intended by law in some areas, but not in others. We found no
reliable data quantifying the impact of RHCS on access to care.

Some IWK3 we virited ap~ar to be filling a need for primmy care in mral areas.

In all three case-study States, we visited RHCS which appear to have retained or
expanded primary care in rural areas. Some were the only source of primary care in
their areas - or had been at the time they were established. They were located in very
small towns in sparsely populated areas, many of them staffed by a lone midlevel
practitioner. We visited specialty clinics (pediatrics; obstetrics and gynecology) which
are the only providers of such care for miles around. We visited clinics where
respondents said that hiring a midlevel practitioner had enabled them to expand office
hours or services. We met midlevel practitioners who impressed us with their ties to
the community, One such individual is a physician assistant who recently returned
home after 20 years in the Air Force to staff a small RHC by himself, making
occasional home visits to homebound patients and conducting health education
campaigns at local football games, where he serves as the team medic.

Respondents gave several examples of how they think their RHCS have increased
access to care. Their presence in the community alone has widened access. The
enhanced reimbursement has kept them in business or enabled them to seine more
Medicaid patients (specifically). They provide an alternative to inappropriate and
more-expensive emergency room care (noted by provider-based RHCS). Midlevel
practitioners at RHCS have increased the number of patients seen in existing practices
and brought excellent primary care to rural areas, including preventive care and health
education. Rural health clinics have resulted in increased acceptance of midlevel
practitioners by patients and physicians alike.

While we believe that some of the RHCS we visited have increased access to care, we
found no reliable documentation that quantified such increases.

Howeve~ we ako belkve that RHCS may not always be increasing access to primury care
as the kbw intended

Our visits and data analysis also revealed RHCS whose impact on access to care is
questionable. We have identified four reasons why we believe that RHCS may not
always be increasing access to care as intended: (1) They may not be located in true
medically underserved areas, because designations are outdated or inappropriate; (2)
Providers currently serving the medically undersexed population may simply convert
to RHC status when no additional incentives were needed to retain them; (3) RHCS
may be concentrated together, or in areas with other providers serving a similar
population, thereby duplicating services already amply available; and (4) RHCS may
actually have a negative impact by driving out other providers from the area - either
public health providers with greater accountability for serving the medically
underserved, or primary care physicians. Each of these reasons is discussed below.


                                           10
Medicallv Underserved   Decimations


Medically undersexed designations may be outdated and we question their validity in

some areas. The Federal designations for many counties in our case study had not

been updated for years. Two counties with 8 and 10 RHCS had only a governor

designation, created years ago at the request of an individual (a different person in

each case) desiring to establish an RHC. We also visited areas that appeared to have

a more than adequate supply of both primary and specialty care: a city (3 RHCS) with

a major university and medical school, and another (5 RHCS) with two hospitals and

10 yellow pages in the telephone book listing clinics and physicians, including

numerous specialties (from cardiology to sports medicine.)


A General Accounting Office (GAO) report entitled “Health Care Shortage Areas:

Designations Not a Useful Tool for Directing Resources to the Undersexed,” released

in September 1995, recommends that the current designation process be abandoned in

favor of program-specific criteria to be developed by the Public Health Service (PHS).

The Health Resources and Services Administration, in PHS, has commented to GAO

disagreeing with their conclusions and recommendations and describing measures they

are taking to strengthen the existing designation process. They also disagree in its

comments with GAO’s statement that the RHC program was created for isolated rural

communities unable to support a physician’s practice. Their view is that congress

more broadly intended the program to sustain and increase the number of primary

care providers, including midlevel practitioners, in rural underserved areas.


Conversions


Physician practices (solo and group practices, large and small practices) are converting

to RHC status but do not need to demonstrate whether they increase access to care as

a result. Two of the freestanding RHCS in our sample were established in areas with

no other primary care; the rest were existing practices that converted, many

respondents noting that the promise of enhanced reimbursement was the driving force

for conversion.


Conversion to RHC status for existing practices is not necessarily a bad thing. As

noted previously, it may preserve or expand a financially shaky practice or bring

additional care through midlevel practitioners. However, we found no documentation

or indication of any kind, at the RHC or the State level, of how or the extent to which

conversions have increased access to care.


Concentration   of Providers


Concentrations of RHCS have grown up in some places adjacent to or within large

towns rather than rural areas. For example, we visited a small city of 44,000 with an

RHC with 12 physicians and 4 midlevel practitioners, and 4 other smaller RHCS. Five

more RHCS serve the other 35,000 people in the surroundingcounty.




                                           Al
States described, and we observed, other situations that raise questions about whether
additional access is needed or provided: RHCS located next door to or across the
street from each other; single providers who establish multiple sites in one community;
an RHC located inside a hos ital or next to an emergency roomG; and three RHCS
licensed at the same address. ?

ImDact on Other Providers

Enhanced reimbursement was meant to be an inducement to providers to come to, or
remain in, communities with a lack of primary care. However, in communities with
more than one prima~ care provider, it gives the RHCS (whether independent or
provider-based, new in the community or conversions of existing practices) a
competitive advantage over the non-RHC practices.8 Also, in some places we visited
the clustering or concentration of RHCS appears to increase competition for the same
patients more than demonstrably increase access for new patients.

The provider-based reimbursement mechanism, specifically, confers a significant
financial advantage to this type of RHC compared to physician practices, whether
RHCS or not. For example, demand has driven the salaries of midlevel practitioners
very high in some areas; not subject to a reimbursement cap, provider-based RHCS
can absorb these salaries more easily than independent RHCS. Also, provider-based
RHCS which capture a significant share of Medicare and Medicaid patients may drive
physician practices out of business, seriously reducing access to primary medical care.
This concern is expressed by the National Association of Rural Health Clinics as well
as some States.

In some areas, RHCS are being established very close to community health centers
and federally qualified health centers. The concern we heard here is that RHCS may
drive these entities out of business in the competition for patients, leaving uninsured
and indigent patients without a critical source of care. Community health centers and
federally qualified health centers are mandated to seine this population, but rural
health clinics are not. One State sent us a map showing the clustering of these entities
there, to illustrate this concern.

In two communities, competing hospital-based RHCS operate seeing just 10-12
patients a day because the population of the area is so sparse (1,700). Unlike


    6 One question k%Is an in-house RHC, per se, any more likely to expand access than an outpatient department
operating on a fee-for-service basis?

     7 The concern here is that a patient could be sent to all three clinics in one day for slightly different seMces, each
visit paid at the encounter rate.

     8 Data we found from three States shows the comparison there between average Medicaid reimbursement per
visit for RHCS versus physician oftkes $53.2S versus $3% $51.99 (independent) and $76.84 (provider-based) versus
$2S.3% and $55.50 versus $21.50. Another State reported that RHC reimbursement per visit there is “about double”
fee-for-service reimbursement.


                                                            12

independent RHCS, they can survive despite this low volume because they are not
subject to a productivity standard or a reimbursement cap. Each RHC naturally tries
to steer patients towards its owner-hospital and away from other community hospitals
in the area which may have been seining them. If this loss of business led one
hospital to close, this might deprive the area of both primaxy and tertiary care.

We found no reliable duta quunh~ing the impact of RHCk on access to care.

All RHCS are required to conduct an annual self-evaluation, including a review of the
utilization of services, including the number of patients sewed and volume of services.
However, we found that many of those we visited were either not aware of or did not
understand the requirement, did not keep all of the data required, or lacked detailed
data. Thus we could not accurately determine, from interviews or review of RHC
records, how many patients were seen in a year, their payor status (including what
proportion are uninsured/charity care), where patients lived in relation to the RHC, or
what services they received and how often .9 Neither could we make meaningful year-
to-year comparisons.

State officials in our three case-study States also lack data on access and, like us, are
eager to know what affect RHCS have had on access. One State public health agency
had funded a study to document access, but the contractor was unable to proceed due
to the nature and format of the Medicaid data available.

This program has never been evaluated, thus no national data is available on access.
Recognizing this important information gap, both HCFA and the General Accounting
Office (GAO) have begun studies of the RHC program focused on the issue of access.

REIMBURSEMENT.         Rural health clinics are paid based on their costs,
which may be inflated or inappropriate but are difficult and sometimes
impossible to ve~ or audit without significant resource expenditure by
the government.

Cost reimbursement is well understood as an extremely vulnerable mechanism by
which to pay providers of service. It contains little or no incentive for efficiency,
provides opportunities for inflated and inappropriate payments, is cumbersome and
comple~ and is difficult and expensive to oversee. Each of these vulnerabilities is
discussed below as it pertains to the RHC program.




    9 Available
              data,oftenincomplete,
                                 usuallyshowedthenumberof annualvisits
                                                                    bypayor
                                                                          type,
                                                                             rather
                                                                                 thanan
unduplicated count of patients. We learned earty on that this might not be an accurate reflection of who the clinic is
serving when the physician-owner of an RHC told us that Medicaid patients were 65 percent of all puh”entsat his
RHC, but constituted SO percent of ail visits.


                                                         13
Little or No Incentive for Efficiency


In the three case-study States, from two-thirds to 100 percent of the independent

RHCS are reimbursed at the capped rate. In one State, only 1 out of 28 independent

RHCS in the 4 counties we visited received less than the cap. Also, 15 of the 17 cost

reports for independent RHCS in our sample showed the RHCS receiving the capped

rate, with their costs exceeding the cap; the other 2 reports show costs just under the

cap. This comment by a State official echoed several others we heard: “There seems

little incentive for RHCS to control their costs. As the Medicare cap increases each

year, so do their costs.”


Some States view cost reimbursement as inflationary. We heard of a few that are

trying to control RHC costs in different ways. At least two States have imposed

interim caps on provider-based Medicaid reimbursement and five have placed limits

on the number of Medicaid visits per year to RHCS. We know of two States that

require itemized billing (listing of services provided) from independent RHCS.

(Provider-based RHCS reimbursed on charges already itemize their bills). Other

States, via letters to HCFA or in conversations with us, seek increased authority to

impose administrative and financial controls on RHCS generally.


We heard concerns that (uncapped) billing by provider-based RHCS, especially, is

causing rapid increases in Medicaid costs in some places. In this light, one State

reported that it may have to implement rate reductions for physicians and other

provider groups in order to reimburse these types of RHCS; another State said that it

may reduce prescription coverage or the number of allowable visits to a physician per

year, or perhaps delete prescription coverage for the disabled and elderly. The eight

cost reports we reviewed for provider-based RHCS in our sample showed costs higher

than charges, meaning that the RHCS are reimbursed on charges.


Inflated or Inamxomiate     Costs


We are concerned about the broad definition in the law of an RHC visit: a face-to-

face encounter between a patient and a health care practitioner. Some RHCS we

visited bill for some encounters where they only hand out prescription refills or test

results. A Medicaid fraud control unit in one State uncovered such practices in a

preliminary investigation of a few RHCS. The Medicaid agency there was developing

a revised definition of an encounter to make sure that encounters are billed only when

a patient is assessed by a health care professional.


The States where we made site visits and a few others express concerns about

potential fraud and abuse by RHCS: manipulation of cost reports (cost-loading, cost-

shifting, padding), double-billing, “ping-ponging” clients between related RHCS for

unnecessary visits, billing for unnecessa~ visits, making unlimited or unnecessary visits

to patients’ homes or nursing homes, and duplicate billing (encounter plus fee-for­

sexvice). One State requested a written policy from HCFA on “commingling”, where a

practice operates part of the time as an RHC and part of the time as a fee-for-service



                                            14
practice.l” Another wrote HCFA expressing concern that clinics there are padding
cost reports and billing fee-for-sexvice for core RHC services (services meant to be
covered within the encounter rate). A third State wrote to us noting cases where
several RHCS were licensed at the same address, which they said could lead to abuse
by sending a beneficiary to all three clinics on the same day for slightly different
senfices.

Monitoring RHCS for these kinds of abuses in a cost-reimbursement system is
extremely difficult from a practical standpoint given scarce oversight resources at local,
State and Federal levels.

The lack of a reimbursement cap is reportedly driving the creation of provider-based
RHCS in a number of ways. Small hospitals are establishing RHCS to shift costs in
order to stay financially afloat. Hospitals are buying up and converting physician
practices with promises of higher salaries. One State reported that in place of an
emergency room, a hospital now has a 24-hour rural health clinic. In another case,
the physician-owner of an independent RHC asked a local hospital to buy him out so
that he could convert to provider-based status for enhanced revenue.

In our sample of cost reports from independent RHCS, annual salaries reported for
midlevel practitioners ranged from $18,983 to $112,996. One example of questionable
salary was brought to our attention by a State official where a physician assistant who
owns two RHCS submitted a cost report showing his salary at $140,000 for 7 months
of work; an average annual salary for midlevel practitioners in the State is reportedly
$40-50,000. The official said that the $140,000 was approved by the intermediary
without an audit, but that the State views $140,000 as excessive and has refused to
pay, asking for HCFA guidance on “reasonable reimbursement” in the absence of
regulations.

As noted previously, almost all the 25 cost reports for our sampled RHCS showed the
costs of the RHC exceeding the capped rate (independent) or charges (provider-
based). This could mean that the RHC is losing money treating Medicare and
Medicaid patients, despite rapidly escalating Medicare and Medicaid costs. Or, costs
might ‘not be reported accurately, might be inflated to maintain a basis for higher
billing, or could be shifted to the RHC portion of a practice that operates some of the
time fee-for-sexvice. Possibly, private-pay reimbursement is subsidizing treatment for
Medicare and Medicaid patients. Whatever the reason(s), only a thorough audit of
the cost reports would reveal why costs so often exceed charges.

Independent RHCS are not required to itemize billing. Also, if an RHC physician bills
fee-for-service as well as the encounter rate, we cannot be sure that billing is


    10A physician we vished operates a pediatric practice as an RHC and a fee-for-service aller~ practice in the
same building. “Commingling” refers to the commingling of the assets, staff, records, and resources between the
RHC and fee-for-service portions of such a practice, acknowledged by HCFA to hold potential for abuse. We
understand that consultants sometimes advise physicians to maximize revenue by operating in this way.


                                                         15
appropriate and not duplicative. Only a medical record review and/or audit will
identify what services these RHCS are providing, for what cost. Yet, reviews and
audits are time-consuming and costly.

Complexity of the Svstem

Cost reports are complex and the cost reporting process cumbersome, especially for

small independent RHCS, either newly established or conversions, which lack prior

experience with cost reporting and do not contract with an accounting firm for this

purpose. Some respondents in our case study reported difficulties understanding and

correctly completing the reports, especially the first time they submitted them. An

employee of a Medicare intermediary told us that many of the RHC cost reports he

reviews are prepared by people who do not understand the requirements. We

ourselves reviewed cost reports that were unsigned or where essential schedules

needed to calculate reimbursement were incomplete. One report had been rejected

by the intermediary. In order to settle RHC cost reports, it appears that

intermediaries must often spend considerable time providing technical assistance to

providers.


Lack of oversight


Some States, viewing Federal regulation, oversight, and evaluation of RHCS as lacking,

have asked HCFA for written policy or administrative guidance on a number of issues

such as reimbursement of provider-based RHCsll and commingling, noted

previously.


No site visits are made by HCFA to an RHC after it has been certified. States may

conduct resurveys, although this appears to be rare unless a State has questions about

a specific provider.


It appears that none of the cost reports we reviewed had been thoroughly audited by

the Medicare intermediary. Higher priorities (hospital, nursing home, or home health

agency reviews, for example), plus the expense of full-scale audits, lead intermediaries

to opt for desk-reviews of most RHC cost reports, where they generally compare costs

from year to year to determine the percent of increase and request additional

information, if needed, to document questionable costs. This is not necessarily a bad

technique if the first cost report submitted has been thoroughly audited and base-line

costs established. However, we understand that this is rarely done.


As for State oversight, it appears that most State Medicaid agencies rely heavily on

Medicare’s determination of the reimbursement rate, rarely reviewing cost reports

themselves unless they receive complaints or have particular concerns about a specific

provider.



   11TheAmerieanAcademyof FamilyPhysicians        also called upon’ HCFA to establish an equitable application of
Medieare and Medicaid payment rules for independent and provider-based RHCS.


                                                        16
                   RECOMMENDATIONS



Rural health clinics and related Medicare and Medicaid expenditures are growing at a

rapid pace. However, given the lack of data on the program, we do not know what

we are paying for. This study reveals systemic weaknesses that lead to questions about

whether the program is expanding access to primary care as the law intended, and

whether cost reimbursement remains the best way to bring primary care to

undersexed rural areas. We make three recommendations to HCFA to address our

concerns, some with suggestions of steps that could be taken to implement them.

Some actions are administrative, others could require legislative changes. In any case,

we hope they provide a focus for discussion about how this program can be

strengthened.


Since the GAO and HCFA are now mounting studies on RHCS and the issue of

access, we have not made a recommendation in this area. The Assistant Secretary for

Planning and Evaluation might also be interested in funding more structured,

longitudinal evaluations looking at this issue in the future.


CERTIFICATION PROCESS. The HCF~ with the Health Resources and Sefices
Adrninistratio~ should modify the certification process to increase State involvement
and ensure more strategic placement of rural health clinics.

We recognize that some States have actively encouraged RHC growth or express no
concerns about the program at this time, and we also believe that RHCS are needed
in some places. However, our findings also convince us that greater effort is needed
in this program to ensure that Government dollars translate into increased access.
Growth should be a more rational and strategic process. Also, giving States more of a
voice and increased control over RHC certification is consistent with the trend toward
greater State flexibility in administering the Medicaid program generally. Some ways
to implement this recommendation are:

  ��      Implement the GAO recommendation to create specific undersexed
          designation criteria for this program. Or, refine and oversee the existing
          system to ensure that designations are accurate and up-to-date and that
          areas are redesignated as appropriate and in a timely manner.
   ��     Find ways to expand the involvement of State officials (Medicaid and public
          health) in the certification process.
   ��     Establish new criteria, in addition to rural, undersexed designations, that will
          document need and impact on access of new RHCS.
          . Require applicants to submit a plan documenting need and projected
            impact.
          . Create geographic limits to eliminate concentrations of RHCS.



                                            17

          .Remind States that they may implement their own criteria via a certificate
            of need or similar process they create.
  �       Require recertification of RHCS within a specific time limit (for example, 5
          years), applying new criteria.

REGULATIONS. The HCFA should expedite the issuance of the regulations now
under development.

This recommendation responds to States’ requests for guidance in such matters as
commingling and provider-based reimbursement. This will assist them in oversight of
rural health clinics.

REIMBURSEMENT         METHODOLOGY. The HCFA should take intermediate steps
to improve the oversight and functioning of the current cost reimbursement system,
with the long term goal of implementing a different method.

Intermediate     steps could include:

  E	      Require itemized Medicare billing for independent RHCS and encourage
          States to do the same for Medicaid billing. This allows HCFA to use
          payment safeguards currently in place for all fee-for-sexvice billing. It would
          be useful in identifying fraud and abuse, and provide data on individual
          client sefices for evaluation at both the national and State level. Existing
          codes should be used, with a new code added to capture preventive and
          health education activities.
  �       Require RHCS to provide certified financial statements.
  ��      Implement caps on provider-based RHCS, and allow States to do so. Or,
          find other ways to make reimbursement between provider-based and
          independent RHCS more equitable.
  ��      Require provider-based RHCS to submit cost report worksheets providing
          the same data now required of independent RHCS.
  F	      Implement controls such as a clearer definition of an encounter, itemized
          billing, and limits on visits per patient per year. Remind States that they
          may take such measures also.
  ��      To institute consistency and uniformity in claims review, designate one
          Medicare fiscal agent, or one per region, to process all RHC bills
          (independent and provider-based).

Long term steps could include:

  ��          Once itemized billing is instituted, conduct focused audits of RHCS to
              identify true costs as a basis for developing a new reimbursement
              mechanism.
   ��         Ascertain what proportion of independent RHCS are reimbursed at the
              capped rate. If a strong majority, then consider proposing the elimination of



                                               18

          cost reimbursement and reimburse all independent RHCS at a flat rate,
          requiring itemized billing. Increase the flat rate yearly as appropriate.
  �       Or, using data collected from itemized Medicare and Medicaid RHC bills,
          develop an enhanced fee schedule or a prospective payment system to
          reimburse all RHCS.

COMMENTS

The Health Care Financing Administration, the Health Resources and Semites Administration
(HRSA), and the Assistant Secretary for Planning and Evaluation (ASPE) submitted written
comments on the draft report. Copies of the comments are in Appendix A- They all concur
generally with the recommendations, but expressed concerns and suggestions regarding various
aspects of the steps proposed to carry them out. We look forward to future discussions with
HCFA and HRSA concerning their action plans for implementing the recommendations.

Commentsfrom ASPE also posed questions related to the nature of RHC growth, the
relationship between RHCS and access to care, and how RHCS might be affected by the
growing involvement of Medicare and Medicaid in managed care. These are important issues,
but unfortunately are beyond the scope of this study. We hope that these issues will be
addressed in future studies of the rural health clinic program by ASPE, HCF~ or others.

The National Association of Rural Health Clinics and the National Rural Health Association
also submitted extensive comments. They view the report as unduly critical of RHC growth
and stress the continuing need for incentives to retain and attract primary care to underserved
rural areas. However, they also recognize that many of the problems raised in the report merit
attention. Like HCF~ HRS~ and ASPE, they support our recommendations while
disagreeing with some of the steps proposed to implement them. We have provided copies of
their comments to HCF~ HRS~ and ASPE.

We thank everyone for their comments on this report. We have made changes in the text in
response.




                                              19

APPENDIX      A


 AGENCY CQMMENTS




       A-1
, -/’-%



      4	
                 DEPARTMENT OF HEALTH ta    HUMAN SERVICES                         t+edthCare Flnanting Adm{n{strntion
[
‘\w
                                                                                   Tha Admlnigtrmw
                                                                                   W88hlnfton, DC. 20208




          DATE             JNIO!996

          TO:	           June Gibbs Brown
                         Inspeomr General
                                        *N
          FROM:	         Bruce C. Vladcc
                         Administrator

          suBJEc’n       Office of Inspector
                                           GeneralDraflReport “Rural Health Clinics: GrowtlL
                         Access, aad l%ymen~”(OEL05-94-00040)

          We reviewed the above-referenced&aft reportwhich analyzes the r-t        growthofrursl
          healthclinics ad its implications for the Fedeml govemrnen t andSbtiS,   Our COftUIICli~
          an attached  for your oonsideratiou.

          Thankyou for the opportunityto revkw andcommcut on this draftreport.

          Atfichmem




                                                  A-   2
~
Cutifkation Process. The HCF& with the HealthResources and Services
Administrati~ should modifi the certilioationprocess to hwrease State involvement and
ensure mom strategicplacement of ruralhcaitholinics (RHC).

Q	    Implementthe GAO mommdaa “onto createspecific underserved designation
      criteriafm this prqram. Or, refine andoveGec the existing SYstcm to ensure that
      deaigmuions are acourate andup-to-dateandti   areas are de-designatedas
      appropriate
and in � tidy manner.

      w FA IbsDonse

      We concur. The currentshortageareadesignationsystmnneeds to be revised to

      ensure thatdesignations of shottagc areasare accurateand up-todate @ that

      areas are redesignated as appropriateand in a tidy manner. It is our

      understdbg     that the Hea!th Resouroes and Sezvkes Administration

      (HRSA) will be publishingrcgulatimtsto revise the cuffent dcsignafions

      system. WC will continue to monitm this regulatoryactivity andprovide

      appropriatecomments     regardingtheimpactof the regulations oaathe RHC
      hcnefit.

o	    Find ways to expandthe involvementof state officials (Medicaid andpubJic
      health) in the certification proecss.

      HCFA ResDQIJSS

      We concur. State Medic&d andpublic healthof5ciak should take 8 more active

      role in ensuringthatRHCs arelocated m approprialblydesignated shmtage areas.

      States curredy have the �
                              uthodty to review areasfosappfopdate designations sn~
      d4cs@ationa. Iftstatebelieves thatanaresnoloagerma         the criteriaf~
      designation ass shortagearc~thestatecanrequestthatHRSA de-kignate the
      area WewiUnot@ states to bemorea@iwhti~sq                andwevdlas,k
      wes in monitoriq ~lZWt9 to HRSA to de-designatean area.

o	    EstablishH_           in additionto ruraLd= served de~tions,    that will
      documentSKJcd  and impact on acecss Ofncw RHcs. Requireapplicants10 submit
      a plan docundng need and projectedimpaot. -        ~aphlo    limits to
      Cunirutc Goncemmtionsof RHcs. Remindstates thasthey may impklnent dleir
      own criteriavia a cedkate ofnccd or create8 similarprocess.




                                       A   -3
Page 2


         We disagree. We believe thatwith the implementationof the IiRSA regulations to
         revise the designation system andmore active state involvement in requestingthe
         redesignation of ueas, RHCSwill be finishing services to mral medically
         undcrsmmd residents consistent with the statutoryintent of the RHC benefit.

o	       Require recedficationof RHCSwithin a specific time limit (for example, 5 years),
         appiyiq new criteria.


         We disagree.Congressintendedthatonce8 RHC was approved end continued to
         paticipatc in the Mcdican#Mcdioaidprogramit could oontinue to do so even if
         the arealost its ruralshorlage area status. (See response to previous point.)


Regulations. HCFA should expedite the issuance of the regulationsnow under
development

Reimbursement
           Methodology.
                     HCFAshouldtake rntennediatesteps to improve the
oversight and functioning of the currentcost reimbursementsystem, with the long term
goal of implementing a diffkrentmethod.


We concur with the above two recommendationsandbeliew they are usefd md
meaningfulsuggestions fa improvementof the RHC progranL


Page L last paragraph-An areawitht rnethlly undersexed population group is not an
eligible em for RHO. Also, additionalmas thatera eligible but not mentioned in the
pwtu@ are amaa which idnde � popdatim group whichhas a heahh professional
_          andhi~ migmnt impaot~,

Page 9, certification prooesq 2rd sentence - shouldreed”. ~. tlmtmees oetin broad
Iooationmquinmnts md certainFederalheahh and safety requirementsis approvedto
pm”cipate in the Medioare andMedicaidprograms.”




                                          A   -4
         ,,   ,lW*




         4	
    t                %
                          DEPARTM~T          OF HEALTH & HUMAN             SERVXCES                           PubIii Heekh SOrvlce
[




    ‘L
                                                                                                              Heeifh Re-soums and
                                                                                                               Sm”cQS Adrnhktration
                                                                                                              Rockvilk MD 20657
                                                                        MAY 241996



                         Tb :              Inspector        General, OS,              DHHS

                         FROM ;            Deputy      Admi.n~strator

                         SUBJECT     :	    Office      of   Inspector              General  (OIG) Draft Report
                                           llRural Health clinics:                    Growth, ~ccesS~ and pawen~”
                                           OE1-05-94-00040

                         Attached,          in accordance          with        your    March     29   request,   are HRSA’6
                         comments         to the subjec~           draft           report.
                         Staff     questions        may be referred                  to   Paul   Clark   on
                         (301)     443-5255,                                   A


                                                                           iThi’i
                                                                          yi  ‘, Mahoney   ~Jj   1’




                                                                               A– 5

                                                               ~etration   conuaeAtg
                    gn the Office Of     IIlaDOCtO r      Qenezal    (OIGI DmafQ
                ~rt      ‘Rural Health      Clin i cat arowth.            JLeees8,
                               pavlllant W (OEI-05-94-00040)


QENERA.LCOMMEWTS
HRSA agrees with the 01~’s premise that Rural Health Clinics
(RHCS) should increase access to care. As stated by the OIG,
RHCS are intended to increase access to health care for the
rural medically Undeserved.   We recognize that RHCS receive
cost related reimbursement only for Medicaid and Medicare
patients. Given the intent to increase access, RHCS should be

expected          to    provide    care for   the      uninsured       and underinsured        to
the best          of    their   abilitiee.

CERTIFICATION P ROCESQ

It should be understood that the ways in which the RHC

certification process is modified will be determined in part by

resource constraints, All units of government charged   with

certification or other monitoring responsibilities need

adequate program support resources.

We have concerns with some of the strategies     identified                               by the

OIG for implementing the certification    recommendation.                                 For

example,    we do not concur with                the cxeati,on of specific

underaerved    designation  criteria                for the RHC program.
                                                       The

current designation system can work for the RHC program as well

as other programs. We believe it would be inefficient to

administer             an additional     designation        system.


HRSA endorses several of the strategies identified by the OIG.
We agree with the option to ensure that designations are
accurate and up-to-date, and HRSA is currently working on that

option. We also ,agreethat there should be stronger methods of

incorporating need and impact on access in the certification
proce88.   Certainly, need is a critical factor in determining
where providers should be located.   It should be recognized
that  the presence of other providers, in addition to a
particular RHC, does not necessarily indicate an ade~ate
primary care capacity. One aspect of determining need is a
provider to population ratio analysis. We further concur with

the OIG that consideration should be given to development of a

recertification process. If a recertification process      isI not a
viable alternative, other ways to monitor RHCS should be
examined.





                                            A-6

                                          -2-


REQULATIONS

We understand that Stakes have requested guidance from HCFA
regarding     such    matters    as   provider-based reimbursement  and
commingling      in   a practice      thak operates part of the time as an
RHC and part of the time ae a fee-for-senice    practice,
However, the statement  on page iii of the report that the
States’ requests for guidance have been ‘Ito assist     them in
monitoring and evaluating RHCSN is too limited to sufficiently
explain why States have requested guidance.   It” implies    more
consistency and rigor by States In monitoring and evaluating
RHCS than currently exists. Furthermore, States’ requests for

guidance are related to their desire to limit RHC

certifications and to curtail their rising RHC costs.

~IMBURSEMENT          METHODOLOGY

In the report, the 01(3briefly discussed, but did not evaluate,
cost related reimbursement. HRSA believes that the current
cost reimbursement system should be improved. The current

reimbursement cap for independent RHCS should be examined for

reasonableness, Consideration should also be given to the use

of a cap for provider-based RHCS. We believe HCFA should
consider whether the cap for provider-based RHCS should be the
same or different from that used for independent RHCS.

The OIG statement on page ii that the “Vulnerabilitiea inherent

in the cost reimbursement system are apparent in the RHC

program” implies that implementation of cost related

reimbursement will always have certain problems. The problems

that the OIG cites are as follows~ 1) no incentive for primary

care in undersezved areas, 2) little or no incentive for

efficiency, 3) providing opportunities for inflated and

inappropriate payments, and 4) an overall process which i.a

cumbersome, complex, and difficult and expensive to oversee.
As evidenced by MIX Associates, Inc. 1995 study, llImpactof
Federally Qualified Health Centers Implementation of Community

Health Centers Revenue and Utilizationtt,the problems cited by

the 01(3are not inherent. This study provides evidence

indicating that cost related reimbursement can be associated

with improved access to care for Medicaid recipients and the
uninsured. Furthermore, the study shows that there are




                                         A-7

                                              -3-


incentives   to control   co8ts and ways to guard against                     inflated
and inappropriate     payments. A means to address the
vulnerabilities of cost related reimbursement is the use of
tests of reasonableness of costs such as caps and productivity
screens. There are various      ways to implement       cost related
reimbursement with te8kS of reasonableness,          including    such
options as prospective  all-inclusive      per visit     rates without
reconciliation and cost-related cavitation rates, We believe
that any change from cost related      reimbursement       should  include
a thorough       analysis    of   potential         effects   on the   RHCS’ ability
to remain      in operation,       and the          impact on access to primary
health care in undersexed              rural communities.
We also have concerns with         the OIG suggestion    to institute
itemized   billing   because   it is potentially      in conflict     with               the
desire   to implement    a proces6    which is less cumbersome,
complex, and difficult and expensive to oversee.
OIG    RECO~
The Eealth Care Financing Administration (HCFA), with the HRSA,
should modify the certification proce-s to increaso State
involvement and enmmo more strategic plaeemont of RHCS.
      4 co-
V?e concur.  This recommendation is consistent with HRSA goals
and objectives related to increasing access to primary care,
This should result in more rigorous assessment of need and
community impact and help prevent inappropriate proliferation
of RHc6m Therefore,  HRSA will collaborate with HCFA in
determining how to increase State involvement in the
certification process of RHCS and ensure more strategic

placement of RHCS, giving appropriate consideration to the

OIG’S suggestions for implementing the recommendation,





                                        A-8

          ,,wc,,
              ,J+
    #,,

          &
    �      ,        3


:
5                       DEPARTMENT     OF HEALTH & HUMAN       sERVICES                        OffIce Of the Secretary
:

~..\
                                                                       -     .—
                                                                                               kvastV@On. D,G,    xnm



                                                              JUN I2 Ijx


                TO:             June Gibbs Brown
                                Inspector General

                FROM:           Assistant Secretary for Planning and Evaluation

                SUBJECT:        OIG Draft Report: “Rural Health Clinics: Growth, Access and Payment;” OEI-
                                05-94-00040 -- COMMENTS


                Thank you for giving us the opportunity to comment on this report which identifies structural
                and oversight diff~culties associated with rural health clinics (RHCs). The report is timely and
                touches on issues State officials and others have raised regarding the proliferation of RHCS.
                We agree with the general direction of the report’s recommendations and the topic areas they
                address, although not with every action which is proposed. It is disappointing that this report
                was umble to address the effect the growth in number of RHCS has had on access to care
                other than anecdotally. If information on the impact of RHCS on access becomes available,
                perhaps through the current HCFA evaluation, the report’s recommendations, particularly
                those related to certification, should be revisited.

                While we believe this report raises important questions, we believe it could be strengthened.
                Our specific comments follow:

                BACKGROUND

                �	       On page 2, it is mentioned that independent RHCS are subject to a “productivity
                         standard”. We recommend that this term be defined.

                FINDINGS

                �
                         ~U’                    The report consistently uses the phrase “growth of RHCS” to refer
                         to an increase in the -of         RHCS, and various comparisons are made among States
                         about increases in numbers and corresponding rates of “growth. ” We recommend that
                         a discussion be added indicating that there is significant variety in the types of RHCS,
                         and therefore that not all RHCS are interchangeable units. Nowhere does the report
                         address trends in the number of Medicare and Medicaid patients using RHCS which
                         would be an important and perhaps more significant component of “growth. ”
                          Similarly, while the report on page 6 explores increases in Medicare and Medicaid
                         expenditures for RHCS, it does not shed light on the degree to which these increases
                          are tied to the increase in number of RHCS, as opposed to increases in expenditures
                          among existing RHCS, While there are footnotes addressing the lack of reliable data
                          on users and visits, some acknowledgment should be made of the limitations of using
                          raw numbers of RHCs as the primary unit of amlysis.



                                                            A-9

Page 2- June Gibbs Brown

      In the discussion of recent growth on pages 4-7 much information is provided which is
      lacking in context. For example, the fact that more than half the RHCS in the Nation
      are projected to be located in 10 States is not of itself significant. (More than half the
      Nation’s population resides in the Nation’s 10 most populous States.) What is
      important is that the number of rural residents (or, more to the point, rural residents
      living in undersexed areas) in these States is not proportionate to their number of
      RHCS. In another example, on page 6, it is observed that Medicaid expenditures for
      RHCS are approximately three times those of Medicare, but there is no indication as to
      why this is important.

�
            orv versus DlSC@JMUUVRe~                 It would be helpful for the report, and in
      particular its recommendations on certification and reimbursement methodology, to
      identifi more specifically which program flaws are the result of statutory requirements
      (which would require legislative changes) and which can be addressed through
      regulatory or policy changes.

�




      -- Page 9. The report
                          comparesthecurrent
                                           RHC cerdfication
                                                        process

                                                              toanentitlement
      program.Whilewe understandtheamlogybeingdrawn,we think   theword
                                                            that

      enthlement                  beyondtheonebeingreferred

               hasmany connotations                       tohere,andtherefore

            that
      suggest                usinga different

                theOIG consider             term.


      --Page 11. Some indication
                               ofthebreakdownbetweenFederal

                                                          andState desigmtions
      wouldbe helpful,forbothnew andoldRHCS,


      --      Pages 12-13. In the example of two competing RHCS, it is suggested that
      closing one of two hospitals in a rural area is clearly a negative outcome because it will
      reduce access to primary and tertiary care. This is not necessarily true, particularly in
      areas where there is overcapacity, as is suggested in this example. We recommend that
      this example be revised to take this issue into account.

RECOMMENDATIONS

�	
      _       to C= The introductory paragraph to this section notes that questions have
      been raised as to whether the intent of the law to expand access to care is being met.
      While the topic areas included in the recommendations should be pursued immediately,
      major redesign of RHC requirements would benefit from better information about their
      effect on access. The report should contain a recommendation addressing this point.

�
                  ProcS We agree that the certiilcation process can be improved and that
      expanded involvement of State officials in the process would be beneficial. We would



                                              A- 10

Page 3- June Gibbs Brown

      prefer refinement and improvement of the existing system of designations rather than
      create of a new system to avoid duplication of effort, both at the Federal and State
      levels. Confusion that would result from two similar processes; and the time and StaII­
      up costs inherent in developing and implementing a new system need to be considered.

�	
      ~           An estimated date for publication would be helpfid, if HCFA can provide
      this.

�	
      ~                              We applaud the attempts to create greater fmncial
      accountability and narrow the differences in payment and reporting requirements
      treatment between provider-based and independent RHCS that are spelled out in the list
      of intermediate steps. However, we do not endorse the suggestion of capping visits per
      year. Finally, we do not understand the logic behind the last “intermediate step”
      recommendation. Specifically, why can Medicare use payment safeguards if there is
      only one fiscal agent per region or country, but not if there are more than one?

      The long term steps are directed toward exploring the need for and structure of a new
      reimbursement structure. These possible changes need to be considered against
      Medicaid’s, and increasingly, Medicare’s, growing involvement in managed care and
      the participation of RHCS in mamged care plans. Flat rate reimbursement and
      enhanced fee schedules may well become increasingly inappropriate in this changing
      environment.




                                                          @Q-4--
                                                                     .

                                                      r

                                     Peter B. Edel~




                                           A   -11
